TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Affordable Care Act: Expanded Guidance
                 Provided Assistance to the Exchanges, but
                   Greater Assurance of the Protection of
                     Federal Tax Information Is Needed



                                     September 16, 2014

                             Reference Number: 2014-23-070




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


AFFORDABLE CARE ACT: EXPANDED                        WHAT TIGTA FOUND
GUIDANCE PROVIDED ASSISTANCE TO                      The IRS provided staff dedicated to facilitating
THE EXCHANGES, BUT GREATER                           the readiness of ACA Exchanges to receive FTI
ASSURANCE OF THE PROTECTION OF                       and meet the October 1, 2013, deadline for
FEDERAL TAX INFORMATION IS                           enrollment for health insurance to begin. Also,
NEEDED                                               TIGTA observed the Office of Safeguards while
                                                     it conducted on-site reviews of two Exchanges
                                                     and found its on-site testing procedures to be
Highlights                                           generally adequate.
                                                     However, additional procedures are needed to
Final Report issued on                               provide greater assurance that FTI will be
September 16, 2014                                   protected prior to approving its release.
                                                     Specifically, IRS procedures did not require the
Highlights of Reference Number: 2014-23-070          Exchanges or other agencies to submit an initial
to the Internal Revenue Service Director,            independent security assessment report that
Privacy, Governmental Liaison, and Disclosure.       could help to evaluate risk levels and the status
IMPACT ON TAXPAYERS                                  of required security controls. The current
                                                     documentation on which the Office of
Affordable Care Act (ACA) legislation authorized     Safeguards bases its approval decision for
States to create marketplaces, called                release of FTI does not provide sufficient
“Exchanges,” to simplify the search for health       evidence that required controls have been
coverage by providing multiple options in one        implemented. TIGTA also found deficiencies in
place. Eligible taxpayers who purchase health        procedures related to obtaining signed system
insurance through an Exchange may qualify for        security authorizations and ensuring that on-site
and request a refundable tax credit to assist with   reviews of agencies that have deployed new
paying their health insurance premium. The           systems occur in a timely manner.
ACA authorized the IRS to disclose limited tax
return information to the Exchanges when an          WHAT TIGTA RECOMMENDED
applicant seeks financial assistance. To protect     TIGTA recommended that the Director, Privacy,
the confidentiality of the Federal Tax Information   Governmental Liaison, and Disclosure, ensure
(FTI) disclosed to the Exchanges, the IRS has        that IRS Office of Safeguards’ policy and
established safeguards the Exchanges must            procedures are revised so that independent
employ. If required safeguards are not               assessments of security controls and signed
established and maintained, FTI is at an             system security authorizations are received and
increased risk of unauthorized disclosure and        reviewed by the Office of Safeguards before
use.                                                 approving the release of FTI, and on-site
                                                     reviews of agencies that have deployed new
WHY TIGTA DID THE AUDIT
                                                     systems should be prioritized according to risk
This audit was initiated to determine whether the    and scheduled in a timely manner.
IRS Office of Safeguards has implemented
                                                     IRS management agreed with our
sufficient policies and procedures to ensure that
                                                     recommendations. The IRS plans to require
ACA Exchanges are adequately protecting FTI
                                                     agencies to submit an initial independent
received from the IRS. The IRS is responsible
                                                     security assessment and signed system security
for approving agencies to receive FTI and
                                                     authorization. The IRS also plans to develop
ensuring that these agencies have controls in
                                                     procedures to use the independent security
place to adequately protect the confidentiality of   assessment to validate that controls are
FTI and prevent its unauthorized disclosure and      implemented as described by the agencies,
use.                                                 evaluate risk prior to releasing FTI, and prioritize
                                                     on-site reviews.
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              September 16, 2014


 MEMORANDUM FOR DIRECTOR, PRIVACY, GOVERNMENTAL LIAISON, AND
                DISCLOSURE


 FROM:                        Michael E. McKenney
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Affordable Care Act: Expanded Guidance
                              Provided Assistance to the Exchanges, but Greater Assurance of the
                              Protection of Federal Tax Information Is Needed (Audit # 201420302)

 This report presents the results of our review of whether the Internal Revenue Service (IRS)
 Office of Safeguards has implemented sufficient policies and procedures to ensure that
 Affordable Care Act1 Exchanges are adequately protecting Federal Tax Information received
 from the IRS. This audit was initiated as part of the Treasury Inspector General for Tax
 Administration’s Fiscal Year 2014 Annual Audit Plan and addresses the major management
 challenge of Implementing the Affordable Care Act and Other Tax Law Changes.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Kent Sagara, Acting
 Assistant Inspector General for Audit (Security and Information Technology Services).




 1
  The Health Care and Education Reconciliation Act of 2010 and the Patient Protection and Affordable Care Act,
 Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as amended
 by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
                    Affordable Care Act: Expanded Guidance Provided Assistance to
                       the Exchanges, but Greater Assurance of the Protection of
                                   Federal Tax Information Is Needed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Expanded Guidance Provided Assistance to the Exchanges ........................ Page 5
          On-Site Testing Procedures Were Generally Adequate................................ Page 6
          Independent Security Assessments and Authorizations
          Were Not Reviewed Prior to Approving the Release of
          Federal Tax Information ............................................................................... Page 7
                    Recommendations 1 and 2: .............................................. Page 11

          Agencies Deploying New Systems May Not Be Tested
          for Up to Three Years, Possibly Allowing Security
          Deficiencies to Persist ................................................................................... Page 11
                    Recommendation 3:........................................................ Page 13

          Procedures to Suspend Transmission of Federal Tax
          Information Were Not Adequately Documented .......................................... Page 13
                    Recommendation 4:........................................................ Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Description of Key Controls As They Apply
          to Safeguarding Federal Tax Information ..................................................... Page 20
          Appendix V – Management’s Response to the Draft Report ....................... Page 23
        Affordable Care Act: Expanded Guidance Provided Assistance to
           the Exchanges, but Greater Assurance of the Protection of
                       Federal Tax Information Is Needed




                        Abbreviations

ACA               Affordable Care Act
CMS               Centers for Medicare and Medicaid Services
FTI               Federal Tax Information
HHS               Department of Health and Human Services
IRM               Internal Revenue Manual
IRS               Internal Revenue Service
NIST              National Institute of Standards and Technology
POA&M             Plan of Action and Milestones
SAR               Security Assessment Report
SPR               Safeguards Procedure Report
TIGTA             Treasury Inspector General for Tax Administration
                  Affordable Care Act: Expanded Guidance Provided Assistance to
                     the Exchanges, but Greater Assurance of the Protection of
                                 Federal Tax Information Is Needed




                                              Background

In March 2010, Congress passed two pieces of legislation that the President later signed into
law—the Health Care and Education Reconciliation Act of 2010 and the Patient Protection and
Affordable Care Act (ACA).2 Collectively, these legislations are referred to as the ACA. ACA
legislation seeks to provide more Americans with access to affordable health care. The ACA
created a new structured marketplace, commonly called “Exchanges,” for the sale and purchase
of health insurance. The Exchanges are intended to provide a place for Americans to shop for
health insurance in a competitive environment. The Exchanges should simplify the search for
health coverage by providing multiple options in one place and comparing plans based on price,
benefits, quality, and other important features that help consumers make a choice. The
Department of Health and Human Services (HHS) and its Centers for Medicare and Medicaid
Services (CMS) Division have primary responsibility for implementing the ACA, including
many elements related to the Exchanges.
The ACA authorized States to establish and operate an Exchange themselves (referred to as a
State-based Exchange) or may cede this authority to the HHS/CMS that was tasked with the
creation of the Federal Exchange.3 Developing the Exchanges has been a complex undertaking,
involving the coordinated actions of multiple Federal,4 State, and private stakeholders, and the
creation of an information system, known as the Hub, to support connectivity and near real-time
data sharing between multiple Federal and State agencies.
The ACA required that enrollment for health insurance at the Exchanges begin on
October 1, 2013, for coverage that would be effective January 1, 2014. Eligible taxpayers who
purchase health insurance through an Exchange may qualify for and request a refundable tax
credit5 to assist with paying their health insurance premium. This credit is called the Premium
Tax Credit and is claimed on the taxpayer’s Federal tax return at the end of each coverage year.
This credit can also be paid in advance to a taxpayer’s health insurance provider to help cover
the cost of premiums. These payments are referred to as the advance payments of the Premium
Tax Credit.


2
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
3
  The ACA requires States to establish Exchanges by January 1, 2014, Pub. L. No. 111-148, § 1311(b),
124 Stat. 173. The Secretary of the HHS must establish and operate an Exchange in States that do not elect to
operate an Exchange or in States where the Secretary determines, by January 1, 2013, that a State has failed to take
actions necessary to establish an exchange, Pub. L. No. 111-148, § 1321(c), 124 Stat. 186.
4
  Federal agencies involved in ACA collaboration include, e.g., the HHS, the Social Security Administration, the
Department of Homeland Security, and the Internal Revenue Service.
5
  Any tax credit that is refundable can be used to reduce a taxpayer’s tax liability to zero. Any excess of the credit
beyond the tax liability can be refunded to the taxpayer.
                                                                                                               Page 1
                  Affordable Care Act: Expanded Guidance Provided Assistance to
                     the Exchanges, but Greater Assurance of the Protection of
                                 Federal Tax Information Is Needed


The Internal Revenue Service’s (IRS) role with respect
to the ACA is to implement and administer ACA                   The IRS’s role with respect to
provisions that have an impact on tax administration.           the ACA is to implement and
The IRS’s role includes providing information that will          administer ACA provisions
support the HHS/CMS and the Exchanges in three main                 that have an impact on
areas: 1) eligibility and enrollment, 2) calculating                  tax administration.
maximum Advance Premium Tax Credits, and
3) reconciling advance payments of the Premium Tax Credit with reported taxable income.6 As
part of the eligibility determination related to the Premium Tax Credit, the ACA authorized the
IRS to disclose limited tax return information7 to the Exchanges when an applicant seeks
financial assistance to obtain affordable coverage under ACA provisions. Because the tax credit
may be claimed in advance, the Exchange needs to determine an individual’s eligibility for the
tax credit at the time the individual applies for coverage through the Exchange.
As of October 1, 2013, the IRS had approved 16 Exchanges (14 State-based Exchanges, the
District of Columbia, and the Federal Exchange) to receive Federal Tax Information (FTI) for
income verification purposes related to eligibility and enrollment under provisions of the ACA.
After the IRS approves an Exchange to receive FTI, the Exchange is required to validate
income-related information reported by consumers with select FTI to determine eligibility for the
tax credit.
The Exchanges obtain FTI by initiating an electronic request to the IRS through the Hub. Also
via the Hub, the IRS returns the authorized items of tax return information with respect to each
relevant taxpayer or a response code indicating why no information is provided. The Hub is a
routing tool operated by the HHS to rapidly verify the information submitted by consumers
seeking a determination of what coverage options and financial assistance are available to them.
The Hub does not retain FTI; it routes the information from Exchange requests and IRS
responses.




6
  The IRS has developed four system components to support the Exchange effort: the Coverage Data Repository,
the Income and Family Size Verification project, the Information Sharing and Reporting project, and the Premium
Tax Credit project. These components work together to store taxpayer data, provide responses to Exchange
stakeholders, facilitate data exchange, and calculate amounts related to the Advance Premium Tax Credit,
respectively.
7
  The ACA specified information that the IRS may disclose which includes the following data elements from
individual tax returns for making eligibility determinations: household income, family size, filing status, adjusted
gross income, and taxable Social Security benefits.
                                                                                                              Page 2
                 Affordable Care Act: Expanded Guidance Provided Assistance to
                    the Exchanges, but Greater Assurance of the Protection of
                                Federal Tax Information Is Needed


Premium Tax Credits and cost-sharing subsidies were authorized by the ACA to help certain
individuals and families with incomes between 100 percent and 400 percent of the Federal
poverty level pay for Exchange coverage. To qualify for these income-based financial subsidies,
                                  individuals must also meet the criteria for eligibility for
                                  enrollment and not be eligible for other health insurance
    Without FTI data used to      coverage that meets certain standards. Without FTI data used
  support applicant-provided      to support applicant-provided information about projected
  information, tax credits and    household income, tax credits and subsidies could be
       subsidies could be         incorrectly awarded. Paying back incorrect credits all at once
      incorrectly awarded.
                                  could be a burden on taxpayers and could lead to the need for
                                  collection actions.
IRS Safeguards Program
The IRS’s Office of Safeguards within the Privacy, Governmental Liaison, and Disclosure
Division is responsible for managing and providing oversight to agencies that receive FTI and
ensuring that these agencies have controls in place to adequately protect the confidentiality of
FTI and prevent unauthorized disclosure and use. The Office of Safeguards oversees FTI
sharing with about 300 agencies.8 IRS Publication 1075, Tax Information Security Guidelines
for Federal, State and Local Agencies,9 provides guidance to ensure that the policies, practices,
controls, and safeguards employed by Federal, State, and local recipient agencies, agents, or
contractors adequately protect the confidentiality of FTI.
As part of its oversight responsibilities, the Office of Safeguards conducts periodic reviews of
agencies that receive FTI. These reviews entail both documentary reviews of required reports
and on-site visits to validate that controls reported by agencies are in place. The on-site visits
include reviews of employee awareness programs, proper disposal and secure storage of FTI, and
computer security. The Office of Safeguards’ approach to fulfilling its responsibilities is to
promote a cooperative effort with the recipient agencies
and their contractors to ensure the confidentiality of
                                                                The IRS has been tasked with
FTI. Outreach and communication are key elements in            both sharing FTI for authorized
this approach. The program must also maintain viable             program activities, such as
enforcement standards and capabilities.                        those related to the Exchanges,
                                                                      and with keeping FTI safe and
The IRS Safeguards program has been tasked with both                 confidential, even when the data
sharing FTI for authorized program activities, such as                  are not in its direct control.
those related to the Exchanges, and with keeping FTI                   There is high inherent risk in
                                                                               this situation.
safe and confidential, even when the data are not in its
direct control. The Treasury Inspector General for Tax

8
 According to the IRS, there were 299 agencies subject to Office of Safeguards’ oversight as of April 8, 2014.
9
 The IRS updated Publication 1075 in January 2014 based on the National Institute of Standards and Technology
Special Publication 800-53, Revision 4, Security and Privacy Controls for Federal Information Systems and
Organizations.
                                                                                                         Page 3
                  Affordable Care Act: Expanded Guidance Provided Assistance to
                     the Exchanges, but Greater Assurance of the Protection of
                                 Federal Tax Information Is Needed


Administration (TIGTA) believes that sharing sensitive FTI data with agencies and their many
different environments related to management, information systems, and internal controls
presents a difficult challenge and high inherent risk.10 The Safeguards program is designed to
manage and mitigate these risks.
IRS efforts can at best provide reasonable, but not absolute, assurance that FTI is adequately
safeguarded. Authoritative Federal guidance states that security is never perfect when a system
is implemented. In addition, the behavior of system users and operators may intentionally or
unintentionally bypass or subvert security controls designed to protect systems and data.
Changes in the system or the environment can create new vulnerabilities. Strict adherence to
procedures is rare over time, and procedures become outdated. Thus, Federal standards provide
for a process that monitors the effectiveness of key security controls over time and tracks efforts
to address known vulnerabilities as they are identified. The IRS follows a similar methodology
to help secure FTI at external agencies.
This review was performed with information obtained from the Office of Safeguards
in Washington, D.C.; and at the California Health Benefit Exchange office in
Sacramento, California; and the Access Health CT office in Hartford, Connecticut, during
the period December 2013 through July 2014. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




10
 Inherent risk is the likelihood that a loss of confidentiality, integrity, or availability could occur that would
materially/significantly affect the audit objectives, assuming that there are no related internal controls.
                                                                                                                     Page 4
               Affordable Care Act: Expanded Guidance Provided Assistance to
                  the Exchanges, but Greater Assurance of the Protection of
                              Federal Tax Information Is Needed




                                 Results of Review

Expanded Guidance Provided Assistance to the Exchanges
The IRS took several steps to facilitate the readiness of the Exchanges to receive FTI. Among
these steps were assigning staff dedicated to the ACA Exchanges, providing for an extensive
documentation review process, making on-site visits to provide guidance on required document
preparation, and coordinating with other stakeholder organizations. The IRS also was responsive
to issues raised during this audit.
The IRS used the Safeguards Procedure Report (SPR) as the primary tool to assess the readiness
of Exchange agencies to receive FTI. The information in the SPR describes what the agencies
are doing or plan to do to address the required FTI safeguarding controls described in
Publication 1075. The SPR describes how FTI will be received and processed by the agency,
and how FTI will be protected from unauthorized disclosure. The IRS also used additional
security documents the Exchanges supplied to the HHS/CMS to supplement the information in
the SPR when assessing readiness to receive FTI. In January 2014, the SPR was replaced by the
Safeguard Security Report, which, in addition to serving as an initial report to the IRS on agency
safeguarding procedures, is also used as an annual reporting vehicle.
Approximately two years prior to the October 1, 2013, enrollment commencement, the IRS
began its work with the HHS/CMS and the Exchanges to facilitate timely completion of the
SPRs and to assist the Exchanges in understanding safeguarding controls. The IRS provided
staff to oversee Exchange SPR completions from September 2012 to March 2014. From
December 2012 to September 2013, staffing ranged from eight to 14 individuals (employees and
contractors) to work with the Exchanges, and to review and approve the SPRs. The IRS
provided access to safeguarding requirements on its website and presented the requirements at a
system-wide Exchange meeting in May 2012.
The IRS also collaborated with the HHS to ensure that Publication 1075 requirements were
incorporated into HHS published guidance, security agreements with the Exchanges, and
incident response plans. HHS guidance prohibits the display and disclosure of FTI during
application processing (either electronically or in notices), which significantly reduces the risk of
exposure of FTI. The IRS participated in HHS reviews with the Exchanges to ensure that
Publication 1075 requirements were fully understood and incorporated into the systems’
lifecycle development. The IRS also established standing biweekly office hours to answer
technical questions posed by the Exchanges.
As a result of the early IRS efforts, the Exchanges submitted initial SPRs well before the
October 1, 2013, enrollment commencement. The IRS subsequently worked through multiple
SPR submissions with the Exchanges, providing iterative feedback, until IRS reviewers
                                                                                              Page 5
                  Affordable Care Act: Expanded Guidance Provided Assistance to
                     the Exchanges, but Greater Assurance of the Protection of
                                 Federal Tax Information Is Needed


concluded that all safeguard controls were adequately addressed in the SPRs. The IRS
emphasized that some key controls should be fully implemented or have mitigating controls
before agencies would be approved to receive FTI.
In addition to the document review, the IRS went beyond its standard procedures by visiting each
of the Exchanges to review the SPRs and ensure that the Exchanges understood the importance
of security controls prior to approving them to receive FTI. However, no testing of security
controls occurred during these initial visits. Normally, the IRS would rely on document reviews
with supplemental telephone or correspondence contacts as needed. The IRS made the on-site
visits because the agencies were brand-new entities and not familiar with IRS procedures. IRS
teams made an on-site visit to each Exchange in the July to August 2013 time frame to review
draft SPR submissions, discuss IRS requirements with Exchange personnel, and ensure that any
remaining concerns were properly understood and addressed.
The IRS systems supporting data exchange among the Exchanges and Federal agencies to enroll
applicants functioned largely as expected. Figure 1 shows the IRS-reported number of FTI
disclosures for ACA purposes (Income and Family Size Verification) since the Hub started
operating on October 1, 2013. There is no direct correlation between these numbers and
Exchange enrollments reported by the HHS/CMS or any State.
  Figure 1: Volume of FTI Disclosures for ACA Purposes to Exchange Agencies
                  October     November December             January      February      March 
 Exchange          2013         2013     2013                2014          2014        2014          Total 
15 States With 
  Exchanges       628,614          771,439     2,132,837    1,742,567    1,655,627    3,211,161    10,142,245 

   Federal 
                  910,545       1,180,460      3,278,422    1,989,276    1,682,052    3,530,360    12,571,115 
  Exchange 

   Total 
             1,539,159          1,951,899      5,411,259    3,731,843    3,337,679    6,741,521    22,713,360 
Disclosures 
Source: IRS Office of Safeguards’ internal report.

On-Site Testing Procedures Were Generally Adequate
A safeguard review is an on-site evaluation of the use of FTI and the measures employed by the
receiving agency to protect the information. The Office of Safeguards generally conducts on-site
reviews once every three years. IRS policy states that agencies receiving FTI for the first time
may be reviewed within one year of initial receipt of FTI. Additionally, IRS guidance directs
that risk factors identified outside the reporting process should be taken into consideration in
determining the timing of on-site reviews. Examples of such considerations include, but are not


                                                                                                      Page 6
               Affordable Care Act: Expanded Guidance Provided Assistance to
                  the Exchanges, but Greater Assurance of the Protection of
                              Federal Tax Information Is Needed


limited to, a history of problems, information reported by TIGTA, or news items affecting
agencies and their contractors.
We observed the IRS conduct reviews of two State Exchanges. We found that the Office of
Safeguards’ testing procedures were generally adequate. The IRS conducted opening and
closing meetings to inform agency staff about the review process and results. The testers were
thorough in administering the security testing steps and asked additional questions when needed.
The IRS provided the agencies with a Preliminary Findings Report at the end of the on-site visit
that listed high-level findings related to the testing.
The Office of Safeguards is in the process of procuring the Nessus vulnerability scanner to help
automate the test steps. We agree that automating test processes, where possible, will increase
efficiencies in terms of time required for performing the tests and in regards to providing
accurate and complete automated documentation of test results.
TIGTA also discussed the benefits of revising test steps on operating systems to begin with
queries that determine what ports are open and what applications are running. These queries
could reduce some unnecessary tests, depending on the results. In addition, IRS management
stated that they have made some changes in response to feedback from TIGTA during the audit.
      Both recommendations from TIGTA’s first on-site review visit regarding penetration
       testing and website analysis were added to the IRS’s testing plan in response to TIGTA’s
       feedback on the templates.
      The Office of Safeguards will now request and review the agency’s security testing
       results, during its on-site reviews, and determine (through its own testing) whether the
       agency is taking action on the deficiencies.
      The Office of Safeguards has added, or will add, test steps for 17 Publication 1075
       controls that TIGTA identified were not tested during on-site reviews. Five of the
       17 controls had been newly added to the revised Publication 1075 that the Office of
       Safeguards issued in January 2014 based the National Institute of Standards and
       Technology (NIST) Special Publication 800-53, Revision 4, Security and Privacy
       Controls for Federal Information Systems and Organizations.
Independent Security Assessments and Authorizations Were Not
Reviewed Prior to Approving the Release of Federal Tax Information
The steps that the IRS took to provide assistance to the Exchanges were helpful; however,
additional procedures are needed to provide greater assurance that FTI is protected prior to its
release. IRS procedures did not require the Exchanges or other agencies to submit an initial
independent Security Assessment Report (SAR) that could help evaluate risk levels at the
individual agencies and be used to prioritize on-site reviews. Moreover, although the IRS has a
requirement that agencies complete signed security authorizations prior to receiving FTI, the IRS

                                                                                            Page 7
                 Affordable Care Act: Expanded Guidance Provided Assistance to
                    the Exchanges, but Greater Assurance of the Protection of
                                Federal Tax Information Is Needed


does not require these authorizations be submitted to the IRS prior to approval, and on-site
reviews revealed that authorizations were not always satisfactorily completed.

Independent SARs were not reviewed prior to approving agencies to receive FTI
A best practice as required for Federal agencies11 is that an assessment of security controls must
be conducted by an independent assessor prior to issuing the initial authority to operate for all
newly implemented systems. The results of the assessment are summarized in the SAR, which
identifies the security vulnerabilities that should be corrected or mitigated. The HHS/CMS
initially required the Exchanges to conduct an independent assessment of the security controls in
the newly implemented Exchange information systems prior to issuing the initial authority to
connect to the Hub. Subsequently, the HHS/CMS altered its guidance to allow the Exchanges to
complete independent testing and plan to submit the SAR by March 31, 2014, or within six
months of granting authority to connect to the Hub. However, Publication 1075 does not require
such an initial assessment prior to approval, but does require agencies to assess the security
controls in the information system and its environment at a minimum on an annual basis.
The Office of Safeguards’ current security procedures do not require agencies to submit an
Independent SAR for the IRS’s review prior to the release of FTI. To approve an agency as
ready to receive and properly safeguard FTI, the IRS initially relies on a description of the
controls in the SPR. In conjunction with the documentary review, the IRS works with the
agencies to ensure that the SPR descriptions are comprehensive, and in the case of the
Exchanges, also made visits to facilitate completing the SPR.
Testing for the SARs was generally completed within two months prior to Exchange
implementation. Development of ACA systems continued to be ongoing during the time
between testing and deployment. Consequently, the SARs would not necessarily have had
current information as of the October 1 start date because the Exchanges would be working on
correcting weaknesses that had been identified. However, had the Office of Safeguards obtained
and reviewed the Exchanges’ SARs, it would have had better information regarding the status of
Publication 1075 controls on which to base its approval decisions and to prioritize on-site
reviews to those Exchanges deemed most vulnerable to security breaches.
TIGTA reviewed the Exchange SARs and Plans of Action and Milestones (POA&M)12 which the
HHS/CMS provided to us. Figure 2 shows that our review of the POA&Ms for 11 Exchanges
indicated at least one or more open weaknesses existed in the 17 key security controls as of
October 1, 2013.

11
   NIST Special Publication 800-53, Revision 4, Security and Privacy Controls for Federal Information Systems and
Organizations, Apr. 2013.
12
   The POA&M is used to track security control weaknesses identified by the agency during the internal inspections
process and any other internal or external security assessment. The POA&M must include the corrective actions
identified during the internal inspections and will identify the actions the agency plans to take to resolve these
weaknesses.
                                                                                                          Page 8
                 Affordable Care Act: Expanded Guidance Provided Assistance to
                    the Exchanges, but Greater Assurance of the Protection of
                                Federal Tax Information Is Needed


             Figure 2: The Exchanges With Open Weaknesses in Key Controls
                                 As of October 1, 2013
                     (out of 11 Exchanges with POA&Ms suitable for evaluation)13

                Key Control                                                   The Exchanges With 
                     NIST                    Control Name                    Open Weaknesses As of 
                Designation                                                     October 1, 2013 
       1       AC‐3            Labeling                                                3 
       2       AC‐6            Least Privilege                                         5 
       3       AC‐20           Use of External Information System                      4 
        4      AU‐2            Auditable Events                                        6 
        5      IA‐2            Identification and Authentication                       8 
        6      IA‐5            Identifier Management                                   7 
        7      IR‐6            Incident Reporting                                      4 
        8      MP‐3            Media Marking                                           5 
        9      MP‐6            Media Sanitization                                      4 
       10      PE‐3            Physical Access Control                                 3 
       11      SA‐9            External Information System Services                    3 
       12      SC‐4            Information in Shared Resources                         3 
       13      SC‐7            Boundary Protection                                     5 
       14      SC‐8            Transmission Integrity                                  3 
       15      SC‐9            Transmission Confidentiality                            5 
       16      SI‐2            Flaw Remediation                                        6 
       17      SI‐3            Malicious Code Protection                               3 
     Source: TIGTA analysis of Exchange POA&Ms.

As shown in Figure 2, results of our review of the 11 Exchanges showed that as of
October 1, 2013, multiple Exchanges had open weaknesses related to each of the 17 controls.
These weaknesses were present even though the Office of Safeguards had reviewed the SPRs
and related documents, and worked with the Exchanges to ensure that these particular controls
were in place prior to October 1. IRS reviewers had based their approval decisions on the
descriptions of the controls in the SPR, whether implemented or planned, rather than on the
actual status of these controls, because they had neither the SARs nor IRS test results.
In addition, although not an IRS requirement, three Exchanges did not provide the SARs to the
HHS/CMS prior to October 1, 2013, in accordance with the initial HHS/CMS requirement.
Consequently, this HHS/CMS control was not fully in place for all of the Exchanges at the time
the Office of Safeguards approved them to receive FTI. While the IRS was not responsible for

13
  We did not include five Exchanges in this analysis because two had no SARs, two had POA&Ms with incomplete
data, and one had a draft POA&M. See Appendix IV for a more complete description of the controls as they apply
to safeguarding FTI.
                                                                                                      Page 9
               Affordable Care Act: Expanded Guidance Provided Assistance to
                  the Exchanges, but Greater Assurance of the Protection of
                              Federal Tax Information Is Needed


reviewing agency compliance with this requirement imposed by the HHS/CMS, it was not
always evident in the SPRs whether or not the SARs were completed.
According to the Office of Safeguards, the SPR provided sufficient information to evaluate an
agency’s ability to protect FTI and for basing its approval decision to release FTI. The Office of
Safeguards stated that it relies on agencies, as trusted governmental data exchange partners, to
implement the security controls as described in the SPR prior to receipt of FTI. Agencies are
expected to follow sound information security business practices, including testing as part of
system development procedures, but are not required to provide evidence of compliance prior to
SPR approval. The Office of Safeguards stated that the recipient agency assumes all
responsibility for operation and maintenance of information systems, as well as legal liability for
FTI received under Internal Revenue Code Section 6103. The IRS stated that agencies may
establish additional processes to enhance data protection subsequent to receiving FTI.
Without sufficient and complete information regarding the status of required security controls,
the IRS might approve the release of FTI to an environment that puts FTI at risk of unauthorized
disclosure or misuse.

Signed security authorizations were not obtained prior to approving agencies to
receive FTI
Publication 1075 requires that an authorizing official authorizes (through signature approval) the
information system for processing before commencing operations. The purpose of the
authorization is to ensure that management has reviewed the risks associated with operating the
system and has accepted the risk based on the implementation of the security controls.
Although the IRS had communicated to the Exchanges that systems must be authorized, neither
of the two Exchanges TIGTA visited during the audit had signed security authorizations in place.
While Publication 1075 requires agencies to ensure that the authorizing official authorizes the
information system before commencing operations, it does not require agencies to submit the
signed security authorization to the Office of Safeguards prior to release of FTI.
Because the Office of Safeguards relied on agencies as trusted governmental data exchange
partners to implement the security controls as described in the SPR prior to receipt of FTI, it did
not consider it necessary to obtain signed authorization documents from the recipient agencies
prior to conducting an on-site review. During on-site reviews, the authorization documents were
checked. However, without obtaining security authorizations prior to the release of FTI, the IRS
has insufficient assurance that a responsible agency official has assessed and accepted the risks
of any controls not yet in place prior to making the system operational.




                                                                                           Page 10
               Affordable Care Act: Expanded Guidance Provided Assistance to
                  the Exchanges, but Greater Assurance of the Protection of
                              Federal Tax Information Is Needed


Recommendations
The Director, Privacy, Governmental Liaison, and Disclosure, should:
Recommendation 1: Revise Publication 1075 to state that agencies that are deploying new
systems must conduct an independent assessment of the security controls in their information
systems prior to issuing the initial authority to operate, and must provide the SAR and signed
security authorizations of their systems to the Office of Safeguards before release of FTI will be
granted.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       revise Publication 1075 to require agencies to provide the signed Authority to Operate
       and the results of independent security testing for new systems that will process FTI
       when submitting the Safeguard Security Report specifying controls for the new system.
       The IRS currently requests this documentation from new agencies seeking IRS approval
       to receive FTI for the first time.
Recommendation 2: Revise Office of Safeguards’ policies to include a review of the SAR
for any significant security deficiencies before approving the release of FTI and to use SAR
results as a factor in assessing risk and prioritizing agencies for on-site reviews
       Management’s Response: The IRS agreed with this recommendation. The IRS
       partially implemented this recommendation by reviewing agency security testing results
       during on-site safeguard reviews. The IRS will establish requirements that include the
       SAR as evidence to validate that the controls described in the Safeguard Security Report
       are implemented before the IRS approves an initial release of FTI. The IRS will also
       develop policies and procedures to evaluate the agency’s independent security assessment
       and conduct a risk-based assessment or a modified on-site review prior to initial release
       of FTI. The policy will detail risk-based criteria for release of data as well as actions
       taken to mitigate vulnerabilities before approval of the data exchange. The results will be
       used when developing the safeguards review schedule.

Agencies Deploying New Systems May Not Be Tested for Up to
Three Years, Possibly Allowing Security Deficiencies to Persist
Publication 1075 requires that agencies that receive FTI must agree to Office of Safeguards’
on-site testing of agency security controls. Additionally, the Internal Revenue Manual (IRM),
although out of date, anticipates that agencies receiving FTI for the first time may be reviewed
within one year of initial receipt of the information. The IRM states that factors, such as a past
history of problems, news items, or major changes in a processing system, may indicate a need
for the IRS to conduct a review sooner than it otherwise would.
The Office of Safeguards conducted on-site testing at three of the 16 Exchanges within the first
six months of operation. By June 2014, the IRS stated it had conducted on-site testing of three
                                                                                            Page 11
                Affordable Care Act: Expanded Guidance Provided Assistance to
                   the Exchanges, but Greater Assurance of the Protection of
                               Federal Tax Information Is Needed


additional Exchanges, for a total of six Exchanges tested. We reviewed the overall testing results
for the initial three sites the IRS had visited for 157 controls required in Publication 1075. The
testing results revealed weaknesses in controls that the Exchanges had described as implemented
in their documentation. The results of the on-site testing also showed that weaknesses persisted
in most of the 17 key controls, which the Office of Safeguards had worked with the Exchanges to
ensure were implemented prior to the release of FTI. Additionally, the on-site testing at one
Exchange revealed a serious weakness related to remote access requiring prompt action that was
not evident in the SPR. Figure 3 shows the number of controls with weaknesses identified by the
Office of Safeguards’ on-site testing for which Exchange documentation described as
implemented.
        Figure 3: Selected Results of Office of Safeguards’ On-site Testing
                                                                              Exchange 
                        Weakness Condition 
                                                                        1        2        3 
      Publication 1075 controls (of 157 reviewed by 
      TIGTA) with weaknesses that the Exchanges had                     23       34       35 
      described as implemented in documentation. 
      Key Controls (17 of the 157) with weaknesses 
      that the Exchanges had described as                               8        10       9 
      implemented in documentation. 
     Source: TIGTA analysis of Office of Safeguards’ testing results.

Because the Exchanges were undergoing system testing in the months just prior to system
deployment and working to correct deficiencies that were identified in the testing process, it was
not practical for the Office of Safeguards to perform on-site reviews at the Exchanges prior to
system deployment. However, the current Office of Safeguards’ process to schedule on-site
reviews could significantly delay identifying weaknesses because agencies that have deployed
new systems are reviewed on the same three-year testing cycle as other agencies in their States
that are already receiving FTI. Consequently, although the IRS receives annual reports and
maintains other contacts with them, agencies that have deployed new systems may not receive an
on-site review for up to three years after they first receive FTI.
As we have illustrated, the current documentation on which the IRS bases its approval decision
for release of FTI does not provide sufficient evidence that required controls have been
implemented. The SARs provide better information regarding the status of required controls,
which, as we previously recommended, the IRS should review to ensure that no serious
weaknesses exist before releasing FTI. Therefore, if an agency does not submit a SAR that
indicates the new system materially meets safeguard requirements for protection of FTI, the IRS



                                                                                                Page 12
                Affordable Care Act: Expanded Guidance Provided Assistance to
                   the Exchanges, but Greater Assurance of the Protection of
                               Federal Tax Information Is Needed


should schedule an on-site review prior to releasing FTI. Because another TIGTA report14
related to the IRS Office of Safeguards’ oversight procedures has already made this
recommendation, we will not include it as a recommendation in this report. However, if the IRS
approved the release of FTI based on its review of the SAR, we believe initial on-site testing
should occur as soon as possible after the date FTI is first sent in order to obtain the best
assurance that information is adequately protected.
New untested systems carry a higher risk that controls are not properly implemented or working
as intended. If not tested in a timely manner, security weaknesses may persist, unknown to the
Office of Safeguards or the Exchanges, which may put FTI at risk.

Recommendation
Recommendation 3: The Director, Privacy, Governmental Liaison, and Disclosure, should
prioritize according to risk and timely schedule on-site reviews of agencies that have deployed
new systems and received FTI, particularly when those new systems relate to sensitive programs
such as the ACA.
        Management’s Response: The IRS agreed with this recommendation. The IRS will
        develop a comprehensive review scheduling process that documents risk-based
        deviations from the three-year review cycle for all agencies. The IRS will also establish
        procedures to incorporate new agencies receiving FTI into the review schedule when
        authorizing the initial release of FTI. The IRS will prioritize on-site reviews based on the
        evaluation of the agency’s independent security assessment, IRS risk-based assessment,
        or a modified on-site review to increase assurance that FTI will be protected upon receipt.

Procedures to Suspend Transmission of Federal Tax Information
Were Not Adequately Documented
Federal regulations provide for the IRS to take action to suspend or terminate FTI disclosures to
a recipient agency that has failed to implement adequate safeguards to protect the confidentiality
of FTI.15 The IRS may also refuse to disclose FTI until it determines that Office of Safeguards’
requirements have been or will be met.
The IRM provides procedures for the Office of Safeguards’ on-site reviewers to follow when
they identify serious deficiencies at recipient agencies. Deficiencies may be identified when the
IRS reviews required reports or during on-site testing of security controls. The IRM states that
when an on-site reviewer identifies a serious deficiency, the first action should be to attempt to
obtain voluntary compliance through discussion and negotiation. When an impasse occurs, the

14
   TIGTA, Ref. No. 2014-20-059 , The Office of Safeguards Should Improve Management Oversight and Internal
Controls to Ensure the Effective Protection of Federal Tax Information (Sept. 2014).
15
   Code of Federal Regulations, Title 26, §301.6103(p)(7)-1.
                                                                                                    Page 13
               Affordable Care Act: Expanded Guidance Provided Assistance to
                  the Exchanges, but Greater Assurance of the Protection of
                              Federal Tax Information Is Needed


matter should be elevated to the appropriate IRS management level, and the reviewer should
supply the relevant facts and a recommendation as to what action should be taken if the situation
is not corrected.
The IRM further states that if IRS management is unable to break the impasse, it should initiate
an administrative process to notify the recipient agency in writing of the IRS’s intent to suspend
or terminate FTI disclosures. Such notices allow the recipient agency 30 calendar days to appeal
the IRS’s preliminary determination. However, the IRM also states that a duly delegated IRS
official may immediately suspend FTI disclosures where unauthorized accesses or disclosures
would be made absent the suspension, and makes a reference to a delegation order.
However, the IRM does not clearly cite who has been delegated the authority to make the
decision to immediately suspend FTI prior to initiating the administrative process.
Consequently, the Office of Safeguards’ reviewers may not know the full process to immediately
suspend FTI when serious deficiencies exist. Also, the lack of clear procedures for immediate
suspension of FTI could prolong the time needed to resolve potentially serious incidents.
The IRM also contains some out-of-date information, such as an incorrect business unit, that
applied prior to reorganization. The IRM was last updated in August 2008 when the Office of
Safeguards was in a different business unit. Consequently, the existing guidance is not reflective
of the current organizational structure and should be updated.
As a practical matter, the IRS has not used its immediate authority or the administrative process
to suspend or terminate FTI because it has been able to resolve matters with agencies through
discussion and negotiation when serious deficiencies were discovered. However, clarifying the
procedures to follow in the event that an impasse occurs and immediate suspension or
termination is needed, including identifying the managers who have the authority to immediately
suspend FTI, will help to facilitate IRS communication internally and with agencies about such
issues.

Recommendation
Recommendation 4: The Director, Privacy, Governmental Liaison, and Disclosure, should
update procedures in the IRM, including clarifying procedures for immediate suspension or
termination of FTI, and identifying which managers have the authority to do so when
deficiencies are serious enough to potentially allow unauthorized access or disclosure of FTI.
       Management’s Response: The IRS agreed with this recommendation. The IRS is
       revising the IRM 11.3.36 to clarify the procedures to suspend or terminate disclosure
       when identifying an immediate risk to FTI. The Office of Safeguards’ staff will be
       trained on the procedures and notified of the delegated IRS officials authorized to
       suspend disclosure of FTI.



                                                                                          Page 14
                Affordable Care Act: Expanded Guidance Provided Assistance to
                   the Exchanges, but Greater Assurance of the Protection of
                               Federal Tax Information Is Needed


                                                                                           Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS Office of Safeguards has implemented
sufficient policies and procedures to ensure that ACA Exchanges are adequately protecting FTI
received from the IRS. To accomplish our objective, we:
I.      Evaluated the IRS’s processes and procedures related to the approval of ACA State and
        Federal Exchanges to receive FTI, and determined their adequacy in ensuring protection
        of FTI prior to its release.
        A. Coordinated with TIGTA’s other Security and Information Technology Services audit
           team on the overall Office of Safeguards’ program1 to ensure that we stayed informed
           about their findings and ensured consistency and continuity between the two audit
           reports.
        B. Interviewed the ACA Office of Safeguards’ staff to identify ACA-related processes
           and procedures.
        C. Reviewed the Office of Safeguards’ processes and procedures and other security
           control guidance as they relate to the State and Federal Exchanges and documented
           any control weaknesses identified related to the policies and procedures or guidance.
            1. Publication 1075, Tax Information Security Guidelines for Federal, State and
               Local Agencies—incorporates NIST Special Publication 800-53 controls.
            2. Minimum Acceptable Risk Standards for Exchanges.
            3. The SPRs, System Security Plans, and System Security Plan Workbooks.
            4. Authorization process prior to the release of FTI data.
            5. SPR/System Security Plan validation visit prior to approval to receive FTI.
        D. Determined whether Publication 1075 contains adequate security controls for
           protection of FTI when compared with NIST Special Publication 800-53, Rev. 4
           Security and Privacy Controls for Federal Information Systems and Organizations.
            1. Identified NIST Special Publication 800-53, Rev. 4, controls that, in TIGTA’s
               opinion, should be added to Publication 1075 to ensure protection of FTI.
            2. Determined whether the controls identified by the IRS as critical are sufficient or

1
 TIGTA, Ref. No. 2014-20-059 , The Office of Safeguards Should Improve Management Oversight and Internal
Controls to Ensure the Effective Protection of Federal Tax Information (Sept. 2014).
                                                                                                   Page 15
             Affordable Care Act: Expanded Guidance Provided Assistance to
                the Exchanges, but Greater Assurance of the Protection of
                            Federal Tax Information Is Needed


             should additional security controls be considered as critical and in place prior to
             release of FTI.
      E. Determined whether IRS processes are sufficient to ensure that ACA Exchanges have
         reported that standards are being met and controls are in place.
         1. Based on ACA Exchange approval documents, identified the security controls
            that were not in place when the IRS approved the ACA Exchange to receive FTI.
            We noted if any of these were the security controls that the IRS deemed critical.
         2. Reviewed and evaluated IRS processes to monitor and ensure that failed security
            controls are corrected before FTI is released. Based on available documentation,
            we determined if failed controls were corrected before FTI was released.
      F. Evaluated IRS requirements for information security agreements between the IRS and
         the State and Federal Exchanges.
         1. Determined what formal agreements are required prior to release of FTI.
         2. Assessed whether the IRS has executed these agreements with the appropriate
            parties.
         3. Determined whether the agreements adequately allow for the IRS’s enforcement
            of protection of FTI.
II.   Determined whether State and Federal Exchanges performed required independent
      security assessments prior to receiving FTI.
      A. Determined requirements for State and Federal Exchanges with respect to
         independent security assessments.
      B. Determined what the IRS obtains from State and Federal Exchanges related to the
         independent security assessment – a copy of the results, a copy of the POA&M, etc.
      C. Determined how the IRS uses the information it obtains from the independent
         security assessments.
      D. Reviewed State and Federal Exchanges’ independent security assessment testing
         documentation for adequacy with respect to Publication 1075 for the State
         Exchanges, NIST standards for the Federal Exchange, and TIGTA’s judgment. We
         coordinated with the HHS Office of Inspector General to obtain this documentation
         and on other matters during our review as needed.
         1. Analyzed results and identified controls not in place and/or inadequately reported
            by the independent security assessments.
         2. Determined whether the independent security assessments identified failed
            controls that the IRS’s approval processes did not identify for input to Step I. and,

                                                                                          Page 16
              Affordable Care Act: Expanded Guidance Provided Assistance to
                 the Exchanges, but Greater Assurance of the Protection of
                             Federal Tax Information Is Needed


              where available, that the IRS’s on-site review test processes did not identify for
              input to Step II.
       E. Evaluated the State and Federal Exchanges’ processes to correct security control
          weaknesses reported by the independent security assessments.
          1. Evaluated State Exchange POA&Ms.
          2. Based on available documentation, determined whether failed controls are
             corrected in a timely manner.
III.   Evaluated whether the Office of Safeguards’ reviews are adequate to detect failed
       security controls and whether its processes adequately ensured that failed controls are
       corrected.
       A. Evaluated test plans and templates that the IRS Office of Safeguards uses during
          reviews.
       B. Evaluated test documents from completed on-site reviews to assess the adequacy of
          the IRS’s review process.
       C. Accompanied the IRS on reviews at the California and Connecticut Exchanges that
          took place during the audit period to determine if the Exchanges have implemented
          the security controls required by Publication 1075. We obtained and reviewed test
          plans for each site in advance.
       D. Determined whether the IRS’s reviews identified failed security controls that the
          IRS’s approval process or the State and Federal independent security assessments did
          not identify.
       E. Evaluated IRS processes to ensure that State and Federal Exchanges correct security
          control weaknesses reported by the IRS’s reviews.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the IRS’s policies and
procedures to administer the Safeguards program, other Federal guidance related to computer
security controls, and guidance related to the Exchanges. We evaluated these controls by
interviewing management and by reviewing the relevant IRS and Federal guidance, including the
IRM, Publication 1075, NIST Special Publication 800-53, Revisions 3 and 4, and Minimum
Acceptable Risk Standards for Exchanges.



                                                                                          Page 17
              Affordable Care Act: Expanded Guidance Provided Assistance to
                 the Exchanges, but Greater Assurance of the Protection of
                             Federal Tax Information Is Needed


                                                                              Appendix II

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Jody Kitazono, Audit Manager
Mary Jankowski, Lead Auditor
Louis Lee, Senior Auditor
Midori Ohno, Senior Auditor
Esther Wilson, Senior Auditor
Larry Reimer, Information Technology Specialist




                                                                                     Page 18
             Affordable Care Act: Expanded Guidance Provided Assistance to
                the Exchanges, but Greater Assurance of the Protection of
                            Federal Tax Information Is Needed


                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Governmental Liaison, Disclosure, and Safeguards OS:P:GLDS
Associate Director, Safeguards OS:P:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Privacy, Governmental Liaison, and Disclosure OS:P




                                                                             Page 19
            Affordable Care Act: Expanded Guidance Provided Assistance to
               the Exchanges, but Greater Assurance of the Protection of
                           Federal Tax Information Is Needed


                                                                                     Appendix IV

    Description of Key Controls As They Apply to
       Safeguarding Federal Tax Information

    Key Control
       NIST                                   Description of Control As It Applies to
    Designation    Control Name                         Safeguarding FTI
                                       Agencies must identify FTI data they have and consistently
                                       apply labels to that data in such a way that the data are easily
                                       identified, even when commingled. When data are commingled,
                                       the data must be identified at the most minor level. For
1                                      example, if data are commingled at the table level, i.e., a
    AC-3          Labeling
                                       database which contains FTI and non-FTI data tables, the tables
                                       must be labeled in such a way so that it is readily apparent that
                                       those tables contain FTI. Additionally, if data are commingled
                                       within a table that includes FTI and non-FTI data, FTI data must
                                       be explicitly labeled and identified as such.
                                       Access to FTI must be strictly on a need-to-know basis. FTI
                                       must never be indiscriminately disseminated, even within the
2   AC-6          Least Privilege      recipient agency, body, or commission. No person should be
                                       given more FTI than is needed for performance of his or her
                                       duties.
                                       Only agency-owned computers, media, and software will be
                                       used to receive, process, access, and store FTI. The agency
3                 Use of External
    AC-20                              must retain ownership and control for the security configuration
                  Information System
                                       of all hardware, software, and end-point equipment connecting
                                       to public communication networks including encryption keys.
                                       Auditing must be enabled to the extent necessary to capture
4   AU-2          Auditable Events     access, modification, deletion, and movement of FTI by each
                                       unique user.
                                       Two-factor authentication is required whenever FTI is being
5                 Identification and
    IA-2                               accessed from an alternative work location or if accessing FTI
                  Authentication
                                       via an agency’s web portal by an employee or contractor.




                                                                                                Page 20
            Affordable Care Act: Expanded Guidance Provided Assistance to
               the Exchanges, but Greater Assurance of the Protection of
                           Federal Tax Information Is Needed


     Key Control
        NIST                                   Description of Control As It Applies to
     Designation    Control Name                         Safeguarding FTI
                                        Passwords meet minimum Publication 1075, Tax Information
                                        Security Guidelines for Federal, State and Local Agencies,
                                        requirements. Enforce minimum password complexity
6                  Identifier           consisting of at least eight (8) alphanumeric, i.e., uppercase and
     IA-5
                   Management           lowercase letters, numbers, and/or special characters.
                                        Change/refresh authenticators every 90 days, at a minimum, for
                                        a standard user account, and every 60 days, at a minimum, for
                                        privileged users.
                                        Any data incident potentially involving FTI must immediately
7                                       be reported to TIGTA and the IRS Office of Safeguards
     IR-6          Incident Reporting
                                        immediately, but no later than 24 hours after identification of a
                                        possible issue involving FTI.

8                                       The agency must label information system media containing FTI
     MP-3          Media Marking
                                        to indicate the distribution limitations and handling caveats.
                                        If the media will be reused by the agency for the same purpose
                                        of storing FTI and will not be leaving the organization’s control,
                                        then clearing is a sufficient method of sanitization. If the media
                                        will be reused and repurposed for a non-FTI function and/or will
9                                       be leaving the organization’s control, i.e., media being
     MP-6          Media Sanitization
                                        exchanged for warranty, cost rebate, or other purposes, and
                                        where the specific media will not be returned to the agency, then
                                        purging should be selected as the sanitization method. If the
                                        media will not be reused at all, then destroying is the method for
                                        media sanitization.
                                        Minimum protection standards require two physical barriers
                                        between FTI and an individual not authorized to access FTI.
                                        This may be achieved through secured perimeter/locked
10                 Physical Access
     PE-3                               container, locked perimeter/secured interior, or locked
                   Control
                                        perimeter/security container. FTI must be containerized in areas
                                        where other than authorized employees or authorized contractors
                                        may have access after-hours.
                                        FTI may not be accessed by agency employees, agents,
                   External             representatives, or contractors located “off-shore” (outside of
11   SA-9          Information System   the United States or its territories). FTI may not be received,
                   Services             stored, processed, or disposed via information technology
                                        systems located off-shore.
                                        FTI that may reside in shared system resources, e.g., memory,
12                 Information in
     SC-4                               during application sessions is cleared before the memory is
                   Shared Resources
                                        released back to the system when the session is terminated.




                                                                                                  Page 21
                   Affordable Care Act: Expanded Guidance Provided Assistance to
                      the Exchanges, but Greater Assurance of the Protection of
                                  Federal Tax Information Is Needed


         Key Control
            NIST                                          Description of Control As It Applies to
         Designation         Control Name                           Safeguarding FTI
                                                  FTI is not directly accessible from the Internet. Virtual Private
    13                                            Network (or similar technology providing similar protection,
         SC-7              Boundary Protection
                                                  e.g., end-to-end encryption) should be used when remotely
                                                  accessing FTI.
                                                  The information system protects the integrity of transmitted
    14                     Transmission           information. All FTI in transit must be encrypted when moving
         SC-8
                           Integrity              across a Wide Area Network and within the agency’s Local
                                                  Area Network.

    15                     Transmission           The information system protects the confidentiality of
         SC-9
                           Confidentiality        transmitted information.

    16                                            Agencies must identify, report, and correct information system
         SI-2              Flaw Remediation
                                                  flaws.
                                                  The organization employs malicious code protection
    17                     Malicious Code         mechanisms at information system entry and exit points and at
         SI-3
                           Protection             workstations, servers, or mobile computing devices on the
                                                  network to detect and eradicate malicious code.

    Source: IRS internal document describing the key controls and NIST Special Publication 800-53, Rev. 3.
 




                                                                                                            Page 22
   Affordable Care Act: Expanded Guidance Provided Assistance to
      the Exchanges, but Greater Assurance of the Protection of
                  Federal Tax Information Is Needed


                                                    Appendix V

Management’s Response to the Draft Report




                                                              
                                                          Page 23
Affordable Care Act: Expanded Guidance Provided Assistance to
   the Exchanges, but Greater Assurance of the Protection of
               Federal Tax Information Is Needed




                                                       Page 24
Affordable Care Act: Expanded Guidance Provided Assistance to
   the Exchanges, but Greater Assurance of the Protection of
               Federal Tax Information Is Needed




                                                       Page 25
Affordable Care Act: Expanded Guidance Provided Assistance to
   the Exchanges, but Greater Assurance of the Protection of
               Federal Tax Information Is Needed




                                                       Page 26
